     Department of Homeland Security





     FEMA Should Recover $894,764 of Public Assistance
    Grant Funds Awarded to the Town of Dauphin Island,
                Alabama – Hurricane Katrina




DA-13-06                                   November 2012

                                       OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security
                                            Washington, DC 20528 / www.oig.dhs.gov


                                                 NOV 202m2
MEMORANDUM FOR:                        Major P. (Phil) May
                                       Regional Administrator, Region IV
                                       Federal Emerge             ap:e~~                             ..
FROM:
                                       Assistant Inspe   r General
                                       Office of Em er ency Management Oversight

SUBJECT:                               FEMA Should Recover $894,764 of Public Assistance Grant
                                       Funds Awarded to the Town of Dauphin Island, Alabama -
                                       Hurricane Katrina
                                       FEMA Disaster Number 1605-DR-AL
                                       Audit Report Number DA-13-06

We audited Public Assistance. (PA) funds awarded to the Town of Dauphin Island, Alabama
(Town) (FIPS Code 097-19744-00). Our audit objective was to determine whether the Town
accounted for and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines.

As of November 7, 2011, the Town received a PA award of $4.6 million from the Alabama
Emergency Management Agency (State), a FEMA grantee, for damages resulting from Hurricane
Katrina, which occurred in August 2005. The award provided 100percent FEMA funding for
debris removal activities, construction of a 5-year emergency berm, and repair to roads. The
                                                           1
award consisted of 5 large projects and 29 small projects.

We audited five large projects with awards totaling $4.4 million (see Exhibit A, Schedule of
Projects Audited). The audit covered the period August 29, 2005, to May 27, 2010, during
which the Town submitted claims totaling $4.4 million. At the time of our audit, the Town had
completed work on all projects and had submitted final claims on project expenditures to the
State.

We conducted this performance audit from January to March 2012 pursuant to the Inspector
General Act of 1978, as amended, and according to generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based upon
our audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based upon our audit objective. We conducted this audit by applying
the statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.


1   Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



We interviewed Town, State, and FEMA officials; reviewed the Town’s procurement policies
and procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed
other procedures considered necessary to accomplish our audit objective. We did not assess
the adequacy of the Town’s internal controls applicable to its grant activities because it was not
necessary to accomplish our audit objective. However, we gained an understanding of the
Town’s method of accounting for disaster-related costs and its policies and procedures for
administering activities provided for under the FEMA award.


                                       RESULTS OF AUDIT

FEMA should recover $894,764 of PA funding awarded to the Town. Although the Town
generally accounted for FEMA funds on a project-by-project basis, it did not fully comply with
Federal procurement requirements when awarding a contract valued at $894,764 for road
repairs.

Federal procurement regulations at 44 CFR 13.36 required the Town, among other things, to—

•	 Conduct all procurement transactions in a manner providing full and open competition
   consistent with the regulatory standards (44 CFR 13.36(c)(1).

•	 Perform a cost or price analysis in connection with every procurement action, including
   contract modifications to determine the reasonableness of the contractor’s proposed price.
   A cost analysis will be necessary when adequate price competition is lacking, and for sole
   source procurements, unless price reasonableness can be established on the basis of a price
   of a catalog or market price of a commercial product sold in substantial quantities to the
   general public or based on price set by law or regulation. A price analysis will be used in all
   other instances to determine the reasonableness of the proposed contract price
   (44 CFR 13.36(f)(1)).

FEMA may grant exceptions to its regulatory procurement requirements to subgrantees on a
case-by-case basis (44 CFR 13.6 (c)).

The Town solicited competitive bids for road repairs necessitated by the disaster. Only one
contractor responded to the solicitation, and the Town accepted the contractor’s proposal
without performing a cost or price analysis to determine the reasonableness of the contractor’s
proposed price. The contractor billed the Town $894,764 to complete the road repairs. We
question the $894,764 because the Town did not comply with Federal procurement
requirements and, as a result, FEMA has no assurance that the price paid for the contract work
was reasonable. Table 1 shows the affected projects and related questioned costs. Although
the State instructed the Town to follow Federal procurement regulations, Town officials told us


   www.oig.dhs.gov                              2	                                    DA-13-06
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

that they were unaware of the Federal requirement to perform a cost or price analysis to
determine the reasonableness of the contractor’s bid.

                           Table 1. Contract Costs for Road Repairs
                         Project           Amount            Amount
                        Number             Claimed          Questioned
                           821                 $553,673        $484,680
                        699/757                 410,084         410,084
                          Total                $963,757        $894,764

State and Town Response. State and Town officials disagreed with the finding and our
recommendation that the costs be disallowed. They said that the Town used competitive
procedures to award the contract and that the costs were reasonable based on an analysis they
performed subsequent to the exit conference on costs paid by a neighboring county for similar
work under the same disaster. They also said that FEMA approved the costs during final
inspection of the projects and did not indicate that the costs were unreasonable.


                                    RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

       Recommendation #1: Disallow the $894,764 of ineligible costs claimed for the road
       repair contract that was not procured in accordance with Federal requirements unless
       FEMA determines that the costs were reasonable. For any costs that are unreasonable,
       FEMA may decide to grant an exception for all or part of them as provided for in 44 CFR
       13.36(c).

       Recommendation #2: Instruct the State to remind subgrantees that they need to
       perform a cost or price analysis to determine the reasonableness of contractor’s bids.




   www.oig.dhs.gov                             3                                   DA-13-06
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


We discussed the results of our audit with Town, State, and FEMA officials during our audit. We
also provided a draft report in advance to these officials and discussed it at the exit conference
held on July 11, 2012. After the exit conference, State and Town officials provided a written
coordinated response to the audit finding and recommendations. Their comments, where
appropriate, have been incorporated into this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Adrianne Bryant, Audit Manager; Mary Stoneham, Auditor-in-charge; and Amos Dienye,
Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




   www.oig.dhs.gov                              4                                    DA-13-06
                      OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security

                                                                         EXHIBIT A

                          Schedule of Projects Audited 

                        August 29, 2005, to May 27, 2010 

                        Town of Dauphin Island, Alabama

                       FEMA Disaster Number 1605-DR-AL 



          Project                     Amount     Amount     Amount
                    Project Scope
          Number                      Awarded    Claimed   Questioned
            17      Construct berm   $3,328,857 $3,328,857          -
            821      Repair roads       553,673    553,673    484,680
            699      Repair roads       278,365    278,365    278,365
            757      Repair roads       131,719    131,719    131,719
           1709     Remove pilings      101,736    101,736          -
           Totals                    $4,394,350 $4,394,350   $894,764




www.oig.dhs.gov                        5                                DA-13-06
                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                                                                            EXHIBIT B 

                                Report Distribution List 

                            Town of Dauphin Island, Alabama

                           FEMA Disaster Number 1605-DR-AL 



Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison. FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-009)

Grantee

Public Assistance Coordinator, Alabama Division of Emergency Management

State

State Auditor, Alabama

Subgrantee

Mayor, Dauphin Island, Alabama




   www.oig.dhs.gov                           6                            DA-13-06
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
